App. 1

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
UNITED STATES OF
AMERICA AND STATE OF
DELAWARE, EX REL.
WEIH CHANG,
Plaintiffs,
v.
CHILDREN’S ADVOCACY
CENTER OF DELAWARE,
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)
)

Civ. Action No.
15-442-GMS

ORDER
AND NOW, this 14th day of May, 2018,
upon consideration of the United States’ Motion to
Dismiss under 31 U.S.C. § 3730(c)(2)(A), and all
the papers filed in support thereof and in
opposition thereto, it is ORDERED that the
motion is GRANTED, and the federal False
Claims Act claims (Counts I and II of the
Amended Complaint) are dismissed.
IT IS SO ORDERED.
HONORABLE GREGORY M. SLEET
UNITED STATES DISTRICT
JUDGE
IN THE UNITED STATES DISTRICT COURT

App. 2

FOR THE DISTRICT OF DELAWARE
UNITED STATES OF
AMERICA AND STATE OF
DELAWARE, EX REL.
WEIH CHANGE,
Plaintiffs,

)

)
)
)
)
)

)
)

v.

C. A. No.
15-442 (GMS)

)

CHILDREN’S ADVOCACY
CENTER OF DELAWARE

)
)
)
)

Defendant.
ORDER

AND NOW, this 14th day of May, 2018,
upon consideration of the State of Delaware’s
Motion to Dismiss under 6 Del. C. § 1204(b), and
all papers filed in support thereof and in
opposition thereto, it is ORDERED that the
motion is GRANTED, and the Delaware False
Claims and Reporting Act claims (Counts III and
IV of the Amended Complaint) are dismissed.
IT IS SO ORDERED.
UNITED STATES DISTRICT
JUDGE

App. 3

UNITED STATES COURT OF APPEALS FOR
THE THIRD CIRCUIT
October 26, 2018
ACO-009
No. 18-2311
WEIH STEVE CHANG, United States of America
and State of Delaware, Ex Rel.
v.
CHILDREN’S ADVOCACY CENTER OF
DELAWARE
Weih Steve Chang,
Appellant
(D. Del. No. l-15-cv-00442)
Present: MCKEE and SHWARTZ, Circuit Judges
1. Motion by Appellant to Supplement the
Record Construed as a Motion For Leave
to Expand the Record and for Extension
of Time to File Brief And Appendix;
2. Response in Opposition by Appellee to
Motion by Appellant to Supplement the
Record Construed as a Motion for Leave
to Expand the Record and for Extension
of Time to File Brief and Appendix.
Respectfully,
Clerk/kr
ORDER

App. 4

The foregoing is Denied. It is directed that the
opening brief and appendix be filed no later than
thirty days from the dates of this order.
By the Court,
s/ Theodore McKee
Circuit Judge
Dated: October 30, 2018

App. 5

UNITED STATES COURT OF APPEALS FOR
THE THIRD CIRCUIT
August 23, 2019
No. 18-2311
WEIH STEVE CHANG, United States of America
and State of Delaware, Ex Rel.
v.
CHILDREN’S ADVOCACY CENTER OF
DELAWARE
Weih Steve Chang,
Appellant
(D. Del. No. l-15-cv-00442)
Present: MCKEE, PORTER and RENDELL,
Circuit Judges
1. Motion by Appellant to Stay Appeal, for
Partial Remand of Bringing the Issue of
Conflict of Interest before the District
Court;
2. Response by Appellee USA to Motion;
3. Response by Appellee Childrens Advocacy
Center of Delaware to Motion.
Respectfully,
Clerk/kr

App. 6

ORDER

The foregoing Motion to Stay Appeal, for Partial
Remand of Bringing the Issue of Conflict of
Interest before the District Court is denied as
moot.
By the Court,
s/ David J. Porter
Circuit Judge
Dated: September 12, 2019

App. 7

PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 18-2311

WEIH STEVE CHANG, United States of
America and State of Delaware, Ex Rel.
v.
CHILDREN’S ADVOCACY CENTER OF
DELAWARE

Weih Steve Chang,
Appellant

On Appeal from the United States District Court
for the District of Delaware
D.C. No. l-15-cv-00442
District Judge: Hon. Gregory M. Sleet

Argued: July 2, 2019
Before: McKEE, PORTER, and RENDELL,
Circuit Judges.
(Filed: September 12, 2019)

App. 8

Michael J. Confusione [Argued]
HEGGE & CONFUSIONE, LLC
P.O. Box 366
Mullica Hill, NJ 08062-0366
Counsel for Plaintiff-Appellant Weih Chang
David C. Weiss
Dylan J. Steinberg [Argued]
Jesse S. Wenger
UNITED STATES DEPARTMENT OF JUSTICE
1313 N. Market Street
P.O. Box 2046
Wilmington, DE 19899-2046
Counsel for Plaintiff-Appellee United States
of America
Edward K. Black
DELAWARE DEPARTMENT OF JUSTICE
820 North French Street, 6th Floor
Wilmington, DE 19801
Counsel for Plaintiff-Appellee
State of Delaware
Kimberly A. Boyer-Cohen
MARSHALL DENNEHEY WARNER COLEMAN
& GOGGIN
2000 Market Street
Philadelphia, PA 19103
Counsel for Defendant-Appellee Children’s
Advocacy Center of Delaware

App. 9

OPINION OF THE COURT

PORTER, Circuit Judge.
Weih Chang appeals the District Court’s
orders dismissing his complaint under the False
Claims Act (“FCA”) and its Delaware counterpart.
He argues that the District Court was obliged
under those statutes to hold an in-person hearing
before dismissing his claims. We disagree, so we
will affirm.
I
A
The FCA prohibits the submission of false
claims for payment to the United States. See 31
U.S.C. § 3729(a)(1); United States ex rel. Petratos u.
Genentech Inc., 855 F.3d 481, 486 (3d Cir. 2017). To
incentivize its own enforcement, the FCA allows
private individuals to sue for alleged violations—
called qui tam suits—and offers them a percentage
of an eventual recovery. See 31 U.S.C. § 3730(d).
In a typical qui tam action, a private party
(called a “relator”) sues a defendant on behalf of the
government for alleged FCA violations. The United
States then has 60 days (plus any granted
extensions) to review the claim and decide whether
it will “elect to intervene and proceed with the
action.” § 3730(b)(2). If the government intervenes,
the relator has the right to continue as a party, but
the
government
assumes
the
“primary
responsibility for prosecuting the action.” §
3730(c)(1). If the government chooses not to

App. 10

intervene, the relator may still “conduct the
action.” § 3730(c)(3).
Yet even under the latter scenario, the
government may still “dismiss the action
notwithstanding the objections of the person
initiating the action if the person has been notified
by the Government of the filing of the motion and
the court has provided the person with an
opportunity for a hearing on the motion.” §
3730(c)(2)(A).
B
Chang filed a qui tam action against the
Children’s Advocacy Center of Delaware, asserting
claims on behalf of the United States and the State
of Delaware under the FCA and the Delaware False
Claims Act (“DFCA”).1 In short, Chang alleged that
the Center had applied for and received funding
from the state and federal governments by
misrepresenting certain material information.
Both governments declined to intervene as
plaintiffs, so Chang filed an amended complaint
and the Center answered.
Nearly three years after Chang had filed his
original complaint, the United States and
Delaware each moved to dismiss the case. The
governments asserted that they had investigated
Chang’s allegations and discovered them to be
“factually incorrect and legally insufficient.” App.
1 The FCA and the DFCA are materially identical for the
purposes of this opinion. Compare 31 U.S.C. § 3730(c)(2)(A),
with Del. Code Ann. tit. 6, § 1204(b).

App. 11

114. Chang filed a consolidated opposition to the
motions, contending that the Court should await
summary judgment rather than dismiss the case,
but did not request oral argument or a hearing.
The District Court granted the governments’
motions without conducting an in-person hearing
or issuing a supporting opinion. Chang timely
appealed.
II
The District Court had jurisdiction under 28
U.S.C. §§ 1331 and 1367, and 31 U.S.C. § 3732. We
have appellate jurisdiction under 28 U.S.C. § 1291.
We review the District Court’s grant of the
governments’ motions to dismiss de novo. See
Fowler v. UPMC Shadyside, 578 F.3d 203, 206 (3d
Cir. 2005).
Ill
The issue presented is whether the District
Court erred by granting the governments’ motions
to dismiss Chang’s qui tam action without first
conducting an in-person hearing. Put another way,
since Chang never requested a hearing, does the
FCA guarantee an automatic in-person hearing to
relators before their cases may be dismissed?
Chang says that it does. We disagree.
The parties presented this appeal as an
opportunity for us to take a side in a putative
circuit split. On one hand, the Ninth Circuit says
that courts have approval authority over the
government’s decision to dismiss a qui tam suit. See
United States ex rel. Sequoia Orange Co. v. Baird-

App. 12

Neece Packing Corp., 151 F.3d 1139, 1145-46 (9th
Cir. 1998). This test requires the government to
show (1) “a valid government purpose” and (2) “a
rational
relation
between
dismissal
and
accomplishment of the purpose.” Id. at 1145. If the
government meets these prongs, “the burden
switches to the relator to demonstrate that
dismissal is fraudulent, arbitrary and capricious,
or illegal.” Id. The Tenth Circuit has also adopted
this standard. See United States ex rel. Ridenour v.
Kaiser-Hill Co., LLC, 397 F.3d 925, 934-35 (10th
Cir. 2005).
The D.C. Circuit, by contrast, has held that
the United States has “an unfettered right” to
dismiss a qui tam case. See Swift v. United States,
318 F.3d 250, 252-53 (D.C. Cir. 2003); Hoyte v. Am.
Nat’l Red Cross, 518 F.3d 61, 65 (D.C. Cir. 2008).
The Executive, says that court, has “absolute
discretion” under the Take Care Clause of the
Constitution on “whether to bring an action on
behalf of the United States,” and the FCA nowhere
purports to take that discretion away. Swift, 318
F.3d at 252-53 (citing Heckler v. Chaney, 470 U.S.
821, 830 (1985)).
We need not take a side in this circuit split
because Chang fails even the more restrictive
standard.
The government has an interest in
minimizing unnecessary or burdensome litigation
costs. See Sequoia, 151 F.3d at 1146 (“[T]he
government can legitimately consider the burden
imposed on the taxpayers by its litigation [;] ... even
if the relators were to litigate the FCA claims, the

App. 13

government would continue to incur enormous
internal staff costs.”); Swift, 318 F.3d at 254 (“[T]he
government’s goal of minimizing its expenses is ...
a legitimate objective, and dismissal of the suit
furthered that objective.”). The United States and
Delaware both cited this goal in their motions to
dismiss. And dismissing a case is, of course, the
easiest way to achieve that objective.
Once the governments moved to dismiss, the
burden then shifted to Chang “to demonstrate that
dismissal is fraudulent, arbitrary and capricious,
or illegal.” Sequoia, 151 F.3d at 1145. He failed to
do so, but says that this is beside the point because
the FCA guarantees him an automatic in-person
hearing at which he should have been allowed to
introduce evidence to satisfy his burden.
The plain language of both the FCA and the
DFCA provides relators an “opportunity for a
hearing” when the government moves to dismiss.
31 U.S.C. § 3730(c)(2)(A); Del. Code tit. 6, § 1204.
Chang would have us hold that the District Court
erred by not sua sponte scheduling and conducting
an in-person hearing, even though Chang never
requested one. An “opportunity for a hearing,”
however, requires that relators avail themselves of
the “opportunity.” Indeed, most courts that have
considered this language have held that an inperson hearing is unnecessary unless the relator
expressly requests a hearing or makes a colorable
threshold showing of arbitrary government action.
See, e.g., Sequoia Orange, 151 F.3d at 1145 (“A
hearing is appropriate ‘if the relator presents a
- colorable claim that the settlement or dismissal is

' \

1

App. 14

unreasonable in light of existing evidence, that the
Government has not fully investigated the
allegations, or that the Government’s decision was
based on arbitrary or improper considerations.’”
(quoting S. Judiciary Comm., False Claims
Amendments Act of 1986, S. Rep: No. 99-345, at 26
(1986), reprinted in 1986 U.S.C.C.A.N. 5266,
5291)); cf. Swift, 318 F.3d at 251 (noting that the
district court held a hearing when the relator
“opposed dismissal and requested a hearing”).2 We
find these decisions persuasive.3 We thus hold that
2 See also, e.g., United States ex rel. Mateski v.
Mateski, 634 F. App’x 192, 194 (9th Cir. 2015) (“The district
court did not err in denying Mateski a hearing in this case
because Mateski is only entitled to a hearing if he presents a
colorable claim[.]”); Martin v. United States Dep’t of Agric.,
No. CV 118-009, 2019 WL 166554, at *3 (S.D. Ga. Jan. 10,
2019) (“[T]he Court finds that it is unnecessary to hold a
hearing in this case before granting the Government’s motion
to dismiss.”); United States v. Acad. Mortg. Corp., No. 16-CV02120-EMC, 2018 WL 1947760, at *2 (N.D. Cal. Apr. 25,
2018) (“The relator is not entitled to an evidentiary hearing
as a matter of right.”).
3 We note that some courts hold that a “hearing” in
this context includes written submissions. See, e.g., United
States ex rel. Sibley v. Delta Reg’l Med. Ctr., No.
417CV000053GHDRP, 2019 WL 1305069, at *10 (N.D. Miss.
Mar. 21, 2019) (“Sibley also contends that she is entitled to
an evidentiary hearing as a matter of right. Not so. Again,
Sibley cites no statutory basis for that request. As numerous
courts have held, the hearing requirement is satisfied by
allowing the relator an opportunity to submit a response to
the motion.” (internal quotation marks and citations
omitted)); United States ex rel. May v. City of Dallas, No. 3:13CV-4194-N-BN, 2014 WL 5454819, at *4(N.D. Tex. Oct. 27,
2014) (“Under 31 U.S.C. § 3730(c)(2)(A), a relator is entitled
to ‘an opportunity for a hearing on the motion [to dismiss].’
As the undersigned noted in affording Relator an opportunity
to respond to the motion to dismiss, the hearing requirement
• is satisfied by allowing the relator an opportunity to submit a

App. 15

the dismissal provisions in the FCA and DFCA do
not guarantee an automatic in-person hearing in
every instance.4
Chang never requested a hearing. Nor did
his opposition demonstrate that the governments’
motions were arbitrary or capricious. So the
District Court did not err in granting the
governments’ motions to dismiss his qui tam action
without holding an in-person hearing. We will
affirm the orders of the District Court.

response to the motion[.]” (citations omitted)). This approach
is analogous to our decision that the phrase “civil, criminal,
or administrative hearing” in a similar FCA provision
encompasses any “allegations and information disclosed in
connection with civil, criminal, or administrative litigation.”
United States ex rel. Stinson, Lyons, Gerlin & Bustamante,
P.A. v. Prudential Ins. Co., 944 F.2d 1149, 1156 (3d Cir. 1991).
We take no position on whether this is the correct
interpretation of “hearing” in this context.
4 The need for a request to trigger a hearing is
supported by the Supreme Court’s interpretation of
“opportunity for a public hearing” in similar administrative
contexts. See, e.g., Costle v. Pac. Legal Found., 445 U.S. 198,
202, 214 (1980) (holding that the EPA reasonably construed
the language “opportunity for a public hearing” as not
requiring a public hearing where none was requested); Nat’l
Indep. Coal Operators’ Ass’n v. Kleppe, 423 U.S. 388, 398
(1976) (“[The statute] provides the mine operators with no
more than ‘an opportunity’ for a hearing. The word
‘opportunity’ would be meaningless if the statute
contemplated formal adjudicated findings whether or not a
requested evidentiary hearing is held. ... [T]he language of
the statute ... requires the Secretary to make formal findings
of fact ... only when the mine operator requests a hearing.
The requirement for a formal hearing ... is keyed to a request,
and the requirement for formal findings is keyed to the same
request.”).

App. 16

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-2311

WEIH STEVE CHANG, United States of
America and State of Delaware, Ex Rel.
v.
CHILDREN’S ADVOCACY CENTER OF
DELAWARE
Weih Steve Chang,
Appellant

(D.C. No. l:15-cv-00442)

SUR PETITION FOR REHEARING
Present: SMITH, Chief Judge. McKEE, AMBRO,
CHAGARES,
JORDAN,
HARDIMAN,
GREENAWAY, JR., SHWARTZ, KRAUSE,
RESTREPO, BIBAS, PORTER, MATEY, PHIPPS
and RENDELL1, Circuit Judges
The petition for rehearing filed by
appellant in the above-entitled case having been
submitted to the judges who participated in the
decision of this Court and to all the other available
circuit judges of the circuit in regular active service,
1 Judge Rendell’s vote is limited to panel rehearing only.

App. 17

and no judge who concurred in the decision having
asked for rehearing, and a majority of the judges of
the circuit in regular service not having voted for
rehearing, the petition for rehearing en banc is
denied.
BY THE COURT,
s/ David J. Porter
Circuit Judge
Date: December 20, 2019

